                                                             Memorandum
            U.S. Department of
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:    INFORMATION: Audit Cancellation                          Date:    August 28, 2006
            Notification—New Haven Harbor Crossing Project
            Project Number: 06M3009M000
                                                                   Reply to   JA-40
  From:                                                            Attn of:
            Kurt W. Hyde
            Assistant Inspector General
             for Surface and Maritime Programs
    To:     Federal Highway Administrator

            On April 21, 2006, the Office of Inspector General (OIG) announced its audit of
            the New Haven Harbor Crossing Project—a major transportation improvement
            project on Interstates 95 and 91 in Connecticut. The announced objectives were
            to assess the: (1) causes and effects of cost increases, funding shortfalls, and
            schedule delays on the project; (2) Connecticut Department of Transportation’s
            past and planned actions to manage these issues; and (3) Federal Highway
            Administration’s (FHWA) oversight and stewardship activities related to the
            Project.

            In response to two recent congressional requests, we must redeploy our
            resources. As a result, we are canceling our audit of the New Haven Harbor
            Crossing Project. We will notify you if we decide to conduct this audit in the
            future. If you have any questions or need additional information regarding this
            cancelled audit, please contact me at (202) 366-5630 or Brenda R. James,
            Program Director, at (202) 366-0202.
                                                  #


           cc:     OST Audit Liaison, M-1
                   FHWA Audit Liaison, HAIM-13
                   Federal Transit Administration Audit Liaison, TBP-30
                   AIG for Financial and Information Technology Audits, JA-20
